NO. ________________

IN THE
SUPREME COURT OF THE UNITED STATES
OCTOBER 2020 TERM
____________________
RODNEY BERRYMAN – Petitioner
vs.
RON DAVIS – Respondent
____________________
ON PETITION FOR A WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS FOR THE NINTH CIRCUIT

PETITION FOR WRIT OF CERTIORARI
[CAPITAL CASE]
SAOR E. STETLER*
Law Offices of Saor E. Stetler
P.O. Box 2189
Mill Valley, CA 94941
Telephone: (415) 388-8924
Email: saorstetler@me.com
Tim Brosnan, CA SBN 75938
Attorney at Law
P.O. Box 2294
Mill Valley, CA 94942
415-962-7967
timothy_brosnan@sonic.net
Attorneys for Petitioner
RODNEY BERRYMAN, Sr.
*Counsel of Record

CAPITAL CASE
QUESTIONS PRESENTED
1.

Was the state court’s denial of Petitioner’s claims in a written opinion and
subsequent summary denial of the same claims in a habeas petition, alleging
defense counsel’s failure to investigate, develop and present available evidence in
mitigation at the penalty phase, contrary to or an unreasonable application of
clearly established federal law as determined by the Supreme Court, or an
unreasonable determination of the facts, within the meaning of 28 U.S.C. §
2254(d)?

2.

Was the state court’s denial of Petitioner’s claims in a written opinion and
subsequent summary denial of the same claims in a habeas petition, alleging
defense counsel’s failures to obtain neuro-psychiatric testing requested by
defense expert witnesses before trial and present that evidence at guilt and
penalty including (a) Petitioner’s mental illness and (b) other available evidence
in mitigation, contrary to or an unreasonable application of clearly established
federal law as determined by the Supreme Court, or an unreasonable
determination of the facts, within the meaning of 28 U.S.C. § 2254(d)?

i

LIST OF PARTIES
All parties appear on the caption of the case on the cover page.
LIST OF PROCEEDINGS
1.

Kern County Superior Court People v. Rodney Berryman, Case No. 34841-Judgment of death entered
December 5, 1988.

2.

California Supreme Court People v. Rodney Berryman, Case No. S008182, 6 Cal.4th 1048 (1993)
Opinion filed on December 27, 1993 affirming judgment and death sentence;
In re Rodney Berryman, Case No. S034862, 1993 Cal. LEXIS 7651 (1993) Opinion filed December 27, 1993 denying Petition for Writ of Habeas
Corpus;
In re Rodney Berryman, Case No. S068933, 1998 Cal. LEXIS 2633 (1998) Opinion filed April 29, 1998 denying Petition for Writ of Habeas Corpus;
In re Rodney Berryman, Case No. S077805, 1999 Cal. LEXIS 7651 (1999) Opinion filed April 21, 1999 denying Petition for Writ of Habeas Corpus;
In re Rodney Berryman, Case No. S102102, 2002 Cal. LEXIS 2894 (2002) Opinion filed May 1, 2002 denying pro se Petition for Writ of Habeas
Corpus;
In re Rodney Berryman, Case No. S226259 - Pro se Petition for Writ of
Habeas Corpus filed on May 4, 2015, as of this date, the petition remains

ii

pending.
3.

United States District Court for the Eastern District of California Rodney Berryman, Sr. v. Robert Wong, Case No. 1:95-cv-05309-AWI Order issued January 15, 2010 denying petition for writ of habeas corpus
(docket no. 414).

4.

United States Court of Appeals for the Ninth Circuit Rodney Berryman, Sr. v. Jeanne Woodford, Case No. 02-80106 - order
issued June 13, 2003, denying pro se interlocutory appeal (docket nos. 7,
11);
Rodney Berryman, Sr. v. Robert Wong, Case No. 10-99004, 954 F.3d 1222
th

(9 Cir. 2020) - Original opinion issued on March 27, 2020 (docket no. 349);
Denial of Petition for Rehearing and Rehearing en Banc on August 20, 2020
(docket no. 363). Throughout these proceedings, Mr. Berryman filed
numerous pro se pleadings, e.g., see DktEntry Nos. 11, 21, 28, 40, 41, 49, 54,
68, 82, 85, 89, 92, 102, 103, 108, 120-126, 129-144, 147-151, 154-155, 162-2,
which resulted in petitioner’s counsel arguing that Berryman was mentally
incompetent and seeking a competency determination, see e.g., Ninth
Circuit DktEntry No. 74; the Ninth Circuit stayed proceedings pending this
Court's issuing a decision in Gonzales v. Ryan, DktEntry No. 78, see Ryan
v. Gonzales, 133 S. Ct. 696 (2013), after which the Ninth Circuit dissolved
the stay and ordered the matter before it to proceed. DktEntry No. 94.

iii

Counsel then argued that Berryman was incompetent to proceed and the
matter should be remanded to the District Court for restoration
proceedings per Gonzales v. Ryan, supra, as an uncertified issue in the
opening brief. DktEntry No. 200, argument III.
5.

Supreme Court of the United States Rodney Berryman, Sr. v. State of California, No. 93-7680 - order issued
January 9, 1995, denying petition for writ of certiorari from the direct
appeal opinion affirming conviction and sentence;
Rodney Berryman, Sr. v. Chappell, No. 12-9604 - order issued June 3,
2013, denying pro se petition for certiorari;
Rodney Berryman, Sr. v. Robert Wong, No. 20-5764 - a pro se petition
which seeks review of collateral and non-dispositive orders from the
underlying Ninth Circuit proceedings including a pro se interlocutory
appeal from the district court as well as various pro se motions and
requests made during the appeal proceedings.

iv

INDEX TO APPENDICES1
Volume 1
th

APPENDIX A

Opinion, Berryman v. Wong, 954 F.3d 1222 (9 Cir. 2020)

APPENDIX B

Order Denying Petition for Rehearing and Petition for Rehearing En
th

Banc, Berryman v. Wong, Case No. 10-99004 (9 Cir. August 20,
2020)
APPENDIX C

Opinion, Berryman v. Wong, Case No.1:95-cv-05309-AWI (United
States District Court for Eastern California, January 15, 2010)
(pages 1-122)

Volume 2
APPENDIX C

Opinion, Berryman v. Wong, Case No.1:95-cv-05309-AWI (United
States District Court for Eastern California, January 15, 2010)
(pages 123-204)

APPENDIX D

Opinion, People v. Berryman, 6 Cal.4th 1048 (1993)

APPENDIX E

Opinion, In re Berryman, 1993 Cal. LEXIS 7651 (1993); Opinion, In
re Berryman, 1998 Cal. LEXIS 2633 (1998); Opinion, In re
Berryman, 1999 Cal. LEXIS 2420 (1999)

1

The appendices are filed concurrently under separate cover.
v

TABLE OF CONTENTS
OPINIONS BELOW . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
JURISDICTION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED . . . . . . . . . . . . . . . . . . . . 2
STATEMENT OF THE CASE . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2
STATEMENT OF FACTS. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 4
A.

Guilt Phase . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 4

B.

Penalty Phase . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 6

REASON FOR GRANTING THE PETITION. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 9
I.

THIS COURT SHOULD GRANT THE PETITION BECAUSE THE LOWER COURTS
FAILED TO APPLY CONTROLLING CASE LAW OF THIS COURT AND THE
NINTH AND OTHER CIRCUIT DECISIONS REGARDING INEFFECTIVE
ASSISTANCE OF COUNSEL AT THE GUILT AND PENALTY PHASES OF A
CAPITAL TRIAL . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 9
A.

II.

Controlling Case Law Excludes Finding That The State Court’s Denial Of
Claim 65 Was Not Unreasonable . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 9

THIS COURT SHOULD GRANT THE PETITION BECAUSE THE LOWER COURTS
FAILED TO APPLY CONTROLLING CASE LAW OF THIS COURT AND THE
NINTH AND OTHER CIRCUIT DECISIONS REGARDING INEFFECTIVE
ASSISTANCE OF COUNSEL AT THE GUILT AND PENALTY PHASES OF A
CAPITAL TRIAL . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 18
A.

Controlling Case Law Excludes Finding That The State Court’s Denial Of
Claims 15, 16, 63 And 64 Was Not Unreasonable . . . . . . . . . . . . . . . . . . . . . . 18
1.

Underlying Events, Mental Health Evidence And Holdings . . . . . . . 19
a.

Defense Mental Health Evidence At Trial . . . . . . . . . . . . . . . . 19

b.

State Habeas Evidence . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 22

vi

c.
2.

Related Court Holdings Below . . . . . . . . . . . . . . . . . . . . . . . . . 25

Strickland and Progeny Exclude The Panel’s Holding That The
State Court’s Opinion Was Reasonable. . . . . . . . . . . . . . . . . . . . . . . . 28

CONCLUSION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 31

vii

TABLE OF AUTHORITIES
FEDERAL CASES
Ainsworth v. Woodford, 268 F.3d 868 (9th Cir. 2001). . . . . . . . . . . . . . . . . . . . . . . . . . . . . 16
Bean v. Calderon, 163 F.3d 1073 (9th Cir. 1998) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 16
Bemore v. Chappell, 788 F.3d 1151 (9th Cir. 2015) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 14
Berryman v. Wong, 954 F.3d 1222 (9th Cir. 2020). . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
Brumfield v. Cain, 576 U.S. ___, 135 S.Ct. 2269 (2015) . . . . . . . . . . . . . . . . . . . . . . . . . . . 11
Cannedy v. Adams, 706 F.3d 1148 (9th Cir. 2013) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 11
Eddings v. Oklahoma, 455 U.S. 104 (1982) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 15
Hendricks v. Calderon, 70 F.3d 1032 (9th Cir. 1995) . . . . . . . . . . . . . . . . . . . . . . . . . . 14, 29
Caro v. Woodford, 280 F.3d 1247 (9th Cir. 2002) . . . . . . . . . . . . . . . . . . . . . . . . . . . 12, 14, 29
Lambright v. Schriro, 490 F.3d 1103 (9th Cir. 2007) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 16
Lockett v. Ohio, 438 U.S. 586 (1978) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 15, 17
Mayfield v. Woodford, 270 F.3d 915 (9th Cir. 2001) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 17
Nunes v. Mueller, 350 F.3d 1045 (9th Cir. 2003). . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 11
Porter v. McCollum, 558 U.S. 30 (2009) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 11
Rompilla v. Beard, 545 U.S. 374,390-392 (2005) . . . . . . . . . . . . . . . . . . . . . . . . 11, 13, 16, 29
Sanders v. Ratelle, 21 F.3d 1446 (9th Cir. 1994) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 13, 29
Sears v. Upton, 561 U.S. 945 (2010) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 11, 13, 29
Smith v. Stewart, 140 F.3d 1263 (9th Cir. 1998) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 16
Strickland v. Washington, 466 U.S. 668 (1984) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . passim

viii

Wiggins v. Smith, 539 U.S. 510 (2003) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 11, 13, 14, 15, 28
Williams v. Filson, 908 F.3d 546 (9th Cir. 2018) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 11, 12
Williams v. Taylor, 529 U.S. 362 (2000). . . . . . . . . . . . . . . . . . . . . . . . . . . . 11, 12, 13, 17, 29
Wilson v. Sellers, 584 U.S. ___, 138 S.Ct. 1188 (2018). . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 4
Ylst v. Nunnemaker, 501 U.S. 797 (1991) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 4

STATE CASES
Chatman v. Walker, 773 S.E.2d 192 (Ga. Supreme Ct. 2015). . . . . . . . . . . . . . . . . . . . . . . 12
Commonwealth v. Housman, 226 A.3d 1249 (Pa. Supreme Ct., Mar. 26, 2020) . . . . . . . 12
People v. Berryman, 6 Cal.4th 1048, 864 P.2d 40 (Cal. 1993) . . . . . . . . . . 1, 4, 23, 26, 27, 28

FEDERAL STATUTES
28 U.S.C. § 1254(1). . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
28 U.S.C. § 2253(c)(1) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
28 U.S.C. § 2254 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1

STATE STATUTES
Cal. Pen. Code §§ 190.3, subd. (d), (h) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 11

ix

IN THE SUPREME COURT OF THE UNITED STATES

PETITION FOR WRIT OF CERTIORARI
Petitioner respectfully prays that a writ of certiorari issue to review the judgment
of the United States Court of Appeals for the Ninth Circuit.
OPINIONS BELOW
The opinion of the Ninth Circuit Court of Appeal appears at Appendix (“App.”) A
to this Petition and is reported at 954 F.3d 1222 (9th Cir. 2020). The order denying the
Petition for Rehearing and Rehearing En Banc appears at Appendix B and is
unpublished. The opinions of the United States District Court appear at Appendix C and
are unpublished. The opinion of the Supreme Court of California on direct appeal
appears at Appendix D and is reported at 6 Cal.4th 1048 (1993). The opinions of the
Supreme Court of California on habeas appear as Appendix E and are unpublished.
JURISDICTION
The district court had jurisdiction of Petitioner’s habeas corpus petition under 28
U.S.C. § 2254. The district court denied the petition and granted a Certificate of
Appealability as to one issue. The Ninth Circuit expanded the Certificate of Appealability
and had jurisdiction under 28 U.S.C. § 2253(c)(1). The Ninth Circuit judgment was
entered on March 27, 2020. App A. A timely petition for rehearing and rehearing en banc
was denied on August 20, 2020. App B. The jurisdiction of this Court is invoked under 28
U.S.C. § 1254(1).
Though Mr. Berryman filed a pro se Petition for Writ of Certiorari on September
1

9, 2020 (Rodney Berryman, Sr. v. Robert K. Wong, Case No. 20-5764), that petition
addressed collateral and non-dispositive orders regarding the treatment of his pro se
pleadings filed in district court and in the 9th Circuit Court of Appeals.
CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED
The Sixth Amendment provides in pertinent part: “In all criminal prosecutions,
the accused shall enjoy the right to a speedy and public trial, by an impartial jury...”
The Fourteenth Amendment provides in pertinent part: “[N]or shall any state
deprive any person of life, liberty, or property, without due process of law; nor deny to
any person within its jurisdiction the equal protection of the law.”
STATEMENT OF THE CASE
On October 18, 1988, the state trial court imposed a judgment of conviction and on
October 28, 1988 sentenced Petitioner to death for crimes that occurred on September 6,
1987.
On December 27, 1993, the state court affirmed the death judgment on automatic
direct appeal. App. D. Petitioner’s state court petition for writ of habeas corpus was
denied the same day. App. E.
On November 4, 1996, Petitioner filed his original federal habeas corpus petition in
district court. Petitioner returned to state court to exhaust the claims in his federal
petition. His First Amended Petition for Writ of Habeas Corpus (“AP”) was filed on
November 6, 1998. After a second return from state court where he exhausted claims in
the AP, on July 10, 2007, the District Court issued an opinion denying an evidentiary

2

hearing and denying the merits of all claims but Claim 18. As to Claim 18, the Court
allowed for further investigation and factual development and deferred ruling pending
the submission of additional evidence. On January 15, 2010, the District Court denied
Claim 18 on the merits and issued a Certificate of Appealability (“COA”) as to Claim 65
and issued its judgment denying the AP. On January 28, 2010, Petitioner filed an Ex
Parte Request for Termination of Appointed Attorneys which the District Court granted.
On February 3, 2010, Petitioner timely filed a Notice of Appeal. On February 23,
2010, present counsel were appointed to represent Petitioner on appeal.
The certified claim 65, as well as Claim 15-16, 63-64, were presented
simultaneously in both the state court automatic appeal and initial state habeas corpus
proceeding; both those cases were fully briefed before the automatic appeal’s oral
argument. The automatic appeal opinion and one-sentence, summary denial of the
habeas petition issued the same day. Apps. D and E. The former held Petitioner failed to
establish prejudice on the issue, but ignored the fact that the court had earlier denied
petitioner’s two confidential, ex parte requests for related investigatory funds. In the
petition for rehearing, Petitioner argued that the court could not deny funds to conduct
any related habeas investigation on the habeas issue and then reject the very same issue
in the automatic appeal on the ground of failure to demonstrate prejudice. The state
court denied rehearing.
The district court denied claim 65 without affording an evidentiary hearing on it
but granted a COA as to Claim 65 alone.

3

On appeal to the Ninth Circuit, Petitioner raised that certified claim along with
several uncertified claims, and argued that the Circuit Court should “look through” the
state court habeas summary denial to the reasoning of the state court’s automatic appeal
opinion as the last reasoned opinion (LRO), per Wilson v. Sellers, 584 U.S. ___, 138 S.
Ct. 1188 (2018), affirming Ylst v. Nunnemaker, 501 U.S. 797, 803-804 (1991).
On March 27, 2020, the Ninth Circuit’s panel issued a per curiam opinion denying
the appeal, in which it expanded the COA to include four other Claims. App. A. The Ninth
Circuit panel opinion examined the state appeal opinion’s reasoning and held that
petitioner “cannot prevail on any of his claims,” finding a lack of prejudice as to each
claim asserted. Id.
The Petition for Rehearing and Rehearing en Banc was denied on August 20, 2020.
App. B.
STATEMENT OF FACTS1
A Kern County, California jury sentenced Petitioner to death for the 1987 murder
of Florence Hildreth (“Hildreth”). The California Supreme Court affirmed his conviction
and sentence on direct appeal, see People v. Berryman, 6 Cal.4th 1048, 864 P.2d 40 (Cal.
1993), and summarily denied his state habeas petition.
A.

Guilt Phase

Petitioner was convicted of murder with special circumstances:

1

This statement of facts is taken from the Ninth Circuit memorandum opinion, which
in turn was based upon the state supreme court’s underlying opinion. No concessions are
intended from repeating this part of the record.
4

felony-murder-rape with the use of a dangerous weapon. The jury heard that Hildreth,
the victim, was a 17-year-old high school student. She and Petitioner were
acquaintances. Around 10:45 p.m. on the night of her death, Hildreth left one aunt’s
house to walk to another’s. She never reached her destination, and her body was found
the next morning sprawled on a nearby dirt road. Prosecution witnesses testified that:
her clothes had been pulled partly off, and forensic evidence suggested that she had been
sexually assaulted; her death was caused by a shallow stab wound in her neck, which
had nicked her carotid artery; a mark on her right cheek had evidently been left by the
sole of a shoe, pressing down on her head for several minutes as she died; shoe prints in
the dirt at the crime scene were similar to those of Petitioner’s shoes, and nearby tire
tracks were similar to the tracks left by the tires of Petitioner’s truck; a blood stain on
his shoe was consistent with Hildreth’s blood but not his own and would have matched
only 1 in 1,470 people who, like Hildreth, were African-American; small golden chain
links found at the scene were consistent with a broken necklace found in Petitioner’s
truck.
Other prosecution witnesses testified that Petitioner told the police that: Hildreth
had never been in his truck, but her thumb print was found inside the passenger-door
window; he also said that he had not been on a nearby road the night of her death, but a
witness saw his truck in that location. Evidence was introduced which the prosecution
contended established that Petitioner appeared to know that Hildreth had been stabbed
before that information was made public.

5

Petitioner’s lawyer, Charles Soria (Soria), argued that the government’s timeline
did not add up and that Petitioner could not possibly have been present to commit the
crime. Although he primarily argued that the prosecution had charged the wrong person,
Soria also alternatively argued that Petitioner might have lost his temper after
consensual sex and was guilty only of voluntary manslaughter.
B.

Penalty Phase

The prosecution’s penalty phase aggravating evidence included the following.
Petitioner had previously been convicted of marijuana transportation and grand theft.
One witness testified he had been in a fight with Petitioner in which he alleged that
Petitioner struck him with a tire iron. The other witness, Petitioner’s father-in-law,
recounted a scuffle during which Petitioner hit him on the nose.
Petitioner’s lawyers called twenty-one witnesses, many of whom were friends and
relatives, including Petitioner’s wife, siblings, and mother. Family and friends testified
that Petitioner was warm and loving and always peaceful with women. The jury heard
that Petitioner’s parents had a bad marriage and that his father was violent with his
mother. The witnesses testified that Petitioner was not given enough attention and
affection as a child. The family moved often, and Petitioner struggled in school. As a
teenager, he began to abuse alcohol and, after a work- related injury to the head, he
began experiencing disabling headaches.
After Petitioner got married in 1986, his life improved. He and his wife had a son,
and Petitioner was an active participant in his father-in-law’s church. But after he lost

6

his job, he began drinking heavily again, leading to “a precipitous downward spiral.” He
and his wife separated shortly before Hildreth’s murder.
Two expert witnesses testified about Petitioner’s mental health and development.
Dr. William Pierce, a clinical psychologist, diagnosed Petitioner with an “alcohol induced
organic disorder.” On psychological tests, he saw “consistent signs of organicity”—a
term then used to describe psychological disorders with apparent physical origins, such
as brain damage. Based on his observations, Dr. Pierce opined that further neurological
testing was required to “confirm or disconfirm the presence of an organic mental
syndrome.” But he explained that he had been unable to administer the necessary tests
because the Kern County hospitals would not grant him permission.
Dr. Samuel Benson, a psychiatrist, agreed that Petitioner exhibited signs of
“organicity.” He opined that Petitioner “does, in fact, suffer from an organic mental
syndrome, that it’s probably alcohol induced, but [that] other factors in addition to his
consumption of alcohol” also contribute, among them “head trauma.” He testified that
Petitioner had sustained head trauma on other occasions, including a work-related fall
from a crane or forklift, and once when he was hit with a pipe. Dr. Benson agreed with
Dr. Pierce that additional testing was necessary, in particular, an electroencephalogram
(EEG), which would measure Petitioner’s brain activity to determine whether he was
suffering from seizures. Drs. Benson and Pierce testified that these seizures could have
caused Petitioner to become violent and disoriented and experience blackouts.
Dr. Benson would also have administered an alcohol-induced EEG, which looks for

7

seizures specifically brought on by alcohol. He, too, testified that local hospitals refused
to allow the tests.
On cross-examination, Dr. Benson agreed that he had no information that
Petitioner had ever experienced a blackout or a seizure or that Petitioner had ever
become lost or disoriented. He explained that because he was unable to perform the
EEG tests, he did not know whether Petitioner had a seizure disorder. He also conceded
that, while an individual might be violent during a seizure episode, it would not be
possible for him to commit rape.
During penalty phase closing arguments, the prosecutor criticized the defense for
failing to have the EEG tests performed. He offered one possible explanation for that
failure: “Because as it stands, they have something to talk about. . . . They don’t want
that test to be performed because it will rule out [brain damage] and then they wouldn’t
have anything to talk about.” The prosecutor argued that even if there had been tests
showing brain damage, they would not have made a difference. The experts’ hypothesis,
he argued, did not fit the rape- murder facts of the case.
The jury returned a sentence of death.

8

REASONS FOR GRANTING THE PETITION
I.

THIS COURT SHOULD GRANT THE PETITION BECAUSE THE LOWER
COURTS FAILED TO APPLY CONTROLLING CASE LAW OF THIS COURT
AND THE NINTH AND OTHER CIRCUIT DECISIONS REGARDING
INEFFECTIVE ASSISTANCE OF COUNSEL AT THE GUILT AND PENALTY
PHASES OF A CAPITAL TRIAL
A.

Controlling Case Law Excludes Finding That The State Court’s Denial
Of Claim 65 Was Not Unreasonable

Petitioner respectfully submits that this capital case deserves this Court’s
consideration because, the underlying decisions that the state court was not
unreasonable in denying this condemned petitioner’s ineffective assistance of counsel
claim conflict with this Court’s foundational decision in Strickland v. Washington, 466
U.S. 668 (1984) and its progeny, as set forth, below.
In Claim 65, petitioner argued penalty phase ineffective assistance of counsel for
failure to investigate and present additional mitigating evidence of family history and
background. The Ninth Circuit panel held fairminded jurists could conclude the state
court’s application of Strickland v. Washington, supra, was correct because petitioner
failed to show prejudice in that nearly all the evidence petitioner argued to be new was
not new, and the rest would not have been sufficient to make a different result
reasonably probable.
The state court automatic appeal opinion (the last reasoned opinion)’s pertinent
passage addresses penalty phase ineffective assistance of counsel briefly, identifying the
defendant’s asserted right as based in the Sixth Amendment and related state
constitution provision, then states that defense counsel called “more than a score” of
9

witnesses “presenting . . . evidence about defendant’s background and character from
the mouths of family members and friends and also from a psychologist and a
psychiatrist. . . . . ,” notes petitioner’s argument includes “. . . numerous cited acts and
omissions . . .” resulting in prejudice. App. D, 6 Cal.4th at 1108. The state court opinion
continues:
We have carefully considered each in its proper context. In few if any instances does
he show professionally unreasonable conduct. In none does he show a reasonable
probability of an adverse effect on the outcome.
For example, defendant does not establish ineffective assistance in defense counsel’s
asserted failure to pursue neurological testing to determine whether and to what
extent he suffered from an organic mental syndrome or disorder. He does not
demonstrate that such testing would have yielded favorable results. Hence, he cannot
demonstrate that its omission adversely affected the outcome within a reasonable
probability.
Neither does defendant establish ineffective assistance in defense counsel’s
asserted failure to further investigate his background and character and then to
introduce additional evidence thereon. He does not demonstrate that such
further investigatory efforts would have yielded favorable results. Hence, he
cannot demonstrate that their omission adversely affected the outcome
within a reasonable probability.
Id. (emphasis supplied). Nowhere in the state opinion is the clearly established federal
law, Strickland, cited, nor is its standard discussed, as to guilt, death eligibility, or
penalty phase ineffective assistance of counsel or any weighing of the unpresented
evidence in mitigation against the evidence in aggravation. As to the latter, it is well
established that the reviewing court’s prejudice analysis must consider all the mitigating
evidence in state habeas, including factors present here, e.g., being the victim of
childhood abuse, having a mental illness history including such associated with head

10

injuries and the defense’s failure to present readily available evidence of mental illness,
including neuropsychiatric evidence requested before trial by the defense’s chosen
experts, particularly when it would have supported state statutory factors in mitigation.2
See, e.g., Williams v. Taylor, 529 U.S. 362, 397-398 (2000), Wiggins v. Smith, 539 U.S.
510, 535 (2003), Rompilla v. Beard, 545 U.S. 374,390-392 (2005), 545 U.S. at 390-92,
Porter v. McCollum, 558 U.S. 30 (2009), Sears v. Upton, 561 U.S. 945, 954, 959 (2010),
Brumfield v. Cain, 135 S.Ct. 2269 (2015), Nunes v. Mueller, 350 F.3d 1045 (9th Cir.
2003), Cannedy v. Adams, 706 F.3d 1148, 1163 (9th Cir. 2013), cert. den. 134 S.Ct. 1001
(2014).
The Ninth Circuit panel opinion identifies four themes of Petitioner’s proffered
habeas evidence, and finds that the jury heard other details relating to each theme. The
panel agrees the jury did not hear habeas evidence of premature birth, Petitioner’s
father’s womanizing and abuse of his mother, or Petitioner’s low IQ score. The panel
holds this evidence would not have significantly altered the character of evidence
supporting mitigation. App. A at 11-13.
First, the panel’s reasoning is contrary to (Cary) Williams v. Filson, 908 F.3d
546, 569-570 (9th Cir. 2018), citing inter alia Wiggins, supra, 539 U.S. at 535, Sears v.
Upton, 561 U.S. 945, 951 (2010); and (Terry) Williams v. Taylor, 529 U.S. 362, 398
(2000).
2

Here, the evidence described would have constituted evidence in mitigation per Cal.
Pen. Code §§ 190.3, subd. (d), (h), and (k); compare, Porter v. McCollum, supra (state court
objectively unreasonable to find no reasonable probability of different penalty for defendant,
where counsel similarly failed to present evidence in mitigation).
11

(Cary) Williams held a district court erred relying on identical reasoning as
here, 908 F.3d at 569-570, explaining that the state sentencing court had not heard the
“full extent of ... Williams[‘s] .. experiences ... and why he might therefore be deserving of
mercy.” Id.; see Olive, Narrative Works, 77 U.M.K.C. L.Rev. 989, 1002 (2009)
(effectiveness of mitigation is in details and presenting an encompassing narrative, tying
mitigation evidence together), quoting the Magistrate Judge’s decision affirmed in
Walbey v. Quarterman, 309 Fed. Appx. 795, 803 (5th Cir. 2009); id., Commonwealth v.
Housman, 226 A.3d 1249, 1273-1280 (Pa. Supreme Ct., Mar. 26, 2020), Chatman v.
Walker, 773 S.E.2d 192, 203-205 (Ga. Supreme Ct., 2015). As in (Terry) Williams, “there
was ‘really ... n[o] ... dispute’ that available mitigation evidence was not presented at
trial,” 529 U.S. at 398. Id., Caro v. Woodford, 280 F.3d 1247, 1254 (9th Cir. 2002).
The 1980 ABA Standards upon which the Supreme Court relied in Williams,
529 U.S. at 396, provide that “[i]t is the duty of the lawyer to conduct a prompt
investigation of the circumstances of the case and to explore all avenues leading to the
facts relevant to the merits of the case and the penalty in the event of conviction. . . The
duty to investigate exists regardless of the accused’s admissions or statements to the
lawyer of facts constituting guilt or the accused’s stated desire to plead guilty.” 1ABA
Standards for Criminal Justice 4-4.1 (2d ed. 1980). The Commentary to Standard 4-4.1
states:
The lawyer also has a substantial and important role to perform in
raising mitigating factors both to the prosecutor initially and to the court
at sentencing. This cannot effectively be done on the basis of broad
general emotional appeals or on the strength of statements made to the
12

lawyer by the defendant. Information concerning the defendant’s
background, education, employment record, mental and emotional
stability, family relationships, and the like, will be relevant, as will
mitigating circumstances surrounding the commission of the offense
itself. Investigation is essential to fulfillment of these functions. Such
information may lead the prosecutor to defer or abandon prosecution and
will be relevant at trial and at sentencing.
[...]
The effectiveness of advocacy is not to be measured solely by what the
lawyer does at the trial; without careful preparation, the lawyer cannot
fulfill the advocate's role. Failure to make adequate pretrial investigation
and preparation may be grounds for finding ineffective assistance of
counsel.
1ABA Standards for Criminal Justice 4-4.1, commentary (2d ed. 1980).
Wiggins, 539 U.S. at 521, repeated Strickland, supra, 466 U.S. at 690-691, in
holding that “counsel has a duty to make reasonable investigations or to make a
reasonable decision that makes particular investigations unnecessary.” Id., Sears,
supra, 561 U.S. at 954; see also Williams, supra, 529 U.S. at 396. Thus, the
constitutional right to effective counsel guarantees petitioner the right to have counsel,
at a minimum, conduct such a reasonable investigation as to enable him or her to make
an informed decision as to how to proceed. Sanders v. Ratelle, 21 F.3d 1446, 1456-1457
(9th Cir. 1994); Rompilla v. Beard, 545 U.S. 374, 387 (2005) (Souter, J.) [citing ABA
Standards for Criminal Justice Investigation from 1982 and 1993]; id., at 395 (O’Connor,
J., conc.) [trial performance unreasonable in part because “attorneys’ decision not to
obtain Rompilla’s prior conviction file was not the result of an informed tactical decision
about how the lawyers’ time would best be spent”]. Failing to conduct a reasonable

13

investigation means that counsel cannot make a reasonable strategic decision. See, e.g.,
Bemore v. Chappell, 788 F.3d 1151, 1174 (9th Cir. 2015).
One facet of an adequate penalty phase investigation and preparation that has
been consistently recognized by the Ninth Circuit is the need for informed mental health
experts. When trial counsel “‘is on notice that his client may be mentally impaired,’ yet
fails ‘to investigate his client’s mental condition as a mitigating factor in a penalty phase
hearing . . . .’ ,” the danger of ineffective assistance is heightened. Caro, 280 F.3d at
1254, quoting Hendricks v. Calderon, 70 F.3d 1032, 1043 (9th Cir. 1995). Had trial
counsel undertaken a rudimentary investigation, he would have discovered school
records showing that Petitioner scored in the borderline intellectually disabled range
with a Full Scale Intelligence Quotient (FSIQ) score of 75. Had trial counsel properly
investigated Petitioner’s social history, he would have discovered that both Petitioner
and his sister were subjected to serial sexual molestation by his uncles as young
children. Trial counsel would also have learned of the beatings and violence that
Petitioner witnessed by his parents throughout his young life. Had this information been
provided to the mental health experts and had trial counsel requested funds from the
Court to conduct the prescribed mental health testing, a different picture could have
been provided to the jury. Tragically, this mitigation information was never presented,
preventing the jury from getting a necessary snapshot of Petitioner’s nightmarish family
history.
In Wiggins, 539 U.S. 510, this Court reversed a death sentence for failure of the

14

trial attorneys to present and uncover voluminous mitigating evidence of the defendant’s
life history and background. Wiggins involved a 1988 crime that was tried in 1989.
Relying on the 1984 decision in Strickland, 466 U.S. 668, the Court noted that the
mitigating evidence counsel failed to discover and present was powerful:
Wiggins experienced severe privation and abuse in the first six years of his life
while in the custody of his alcoholic, absentee mother. He suffered physical
torment, sexual molestation, and repeated rape during his subsequent years in
foster care. The time Wiggins spent homeless, along with his diminished mental
capacities, further augment his mitigation case. Petitioner thus has the kind of
troubled history we have declared relevant to assessing a defendant’s moral
culpability.
Wiggins, 539 U.S. at 535.
In emphasizing the importance of presenting mitigating evidence of a
defendant’s background and character, Wiggins relied on two cases decided many years
before Petitioner’s 1988 trial: Lockett v. Ohio, 438 U.S. 586, 604 (1978), which
invalidated an Ohio law that did not permit consideration of aspects of a defendant’s
background to attenuate the penalty; and Eddings v. Oklahoma, 455 U.S. 104 (1982),
which vacated a death sentence because the trial judge failed to consider the mitigating
factors of the defendant’s turbulent family history and serious emotional disturbance.
The Court held that consideration of the offender’s life history is “part of the process of
inflicting the penalty of death.” Eddings, at 112.
Like the petitioner in Wiggins, Petitioner suffered privation and abuse. On
habeas, psychologist Gretchen White provided a social history, which documented
Petitioner’s various life-history factors associated with mental illness and associated

15

premature birth, low IQ and poor school achievement as suggesting the possibility of
compromised brain functioning, along with Petitioner’s early life deprivation of
emotional nurturance associated with neurobiological abnormalities, absence of
resources, frequent moves and disruption of life, genetic predisposition to and family
history of substance abuse, experience of childhood rejection and neglect, vulnerability
to depression, and cumulative trauma.
In Bean v. Calderon, 163 F.3d 1073 (9th Cir. 1998), the Ninth Circuit held that the
responsibility to perform a proper investigation was “as crucial in 1980 as it is today in
order to assure individualized sentencing and the defendant’s right to a fair and reliable
capital penalty proceeding.” Bean, 163 F.3d at 877. At Bean’s original penalty phase
trial two mental health experts had testified to Bean’s organic personality disorder, but a
number of neuropsychological tests recommended by one of the mental health experts
had not been completed. Just as Bean resulted in reversal for presenting an “unfocused
snapshot,” Bean, 163 F.3d at 1081, of the defendant, Petitioner’s case should also be
reversed for presenting a partial and unfocused snapshot.
Both this Court and the Ninth Circuit “have consistently held that counsel’s failure
to present readily available evidence of childhood abuse, mental illness, and drug
addiction is sufficient to undermine confidence in the result of a sentencing proceeding,
and thereby to render counsel’s performance prejudicial. See, e.g., Rompilla [v. Beard,
545 U.S. 374,390-391] (2005); Ainsworth [v. Woodford], 268 F.3d 868, 878 (9th Cir. 2001);
Smith v. Stewart, 140 F.3d [1263,] 1271 [(9th Cir. 1998)].” Lambright v. Schriro, 490

16

F.3d 1103, 1122 (9th Cir. 2007).
Here, the mitigation case consisted of a parade of witnesses who testified about
Petitioner’s kind and non-violent nature despite the fact that the jury had just convicted
him of a rape-murder; mental health experts who testified about diagnoses they could
not back up with testing data because trial counsel failed to request the funds for the
testing; and a witness who testified about prison conditions in maximum security. This
weak presentation did not comport with the 1980 ABA standards nor with obligations
recognized in Lockett. When this meager offering is compared to the vast amount of
readily available documentary evidence of Petitioner’s chaotic and abusive childhood and
intellectual disability, there can be no question that Petitioner was denied his
constitutionally guaranteed right to the effective assistance of counsel when his trial
lawyer failed to investigate and to present any mitigating evidence any of this available
mitigating evidence to the sentencing jury. See, e.g., Mayfield v. Woodford, 270 F.3d
915 (9th Cir. 2001), citing Williams, 529 U.S. at 393.
As in (Terry) Williams, the unpresented mitigation evidence “might well have
influenced the jury's appraisal of his moral culpability.” 529 U.S. at 398. Additionally,
presenting the neuropsychiatric tests at penalty - discussed further in the next issue might also have done the same, and in any event, would have eliminated the prosecutor’s
argument that the failure to obtain those tests was intentional.

17

II.

THIS COURT SHOULD GRANT THE PETITION BECAUSE THE
LOWER COURTS FAILED TO APPLY CONTROLLING CASE LAW OF
THIS COURT AND THE NINTH AND OTHER CIRCUIT DECISIONS
REGARDING INEFFECTIVE ASSISTANCE OF COUNSEL AT THE
GUILT AND PENALTY PHASES OF A CAPITAL TRIAL
A.

Controlling Case Law Excludes Finding That The State Court’s Denial
Of Claims 15, 16, 63 And 64 Was Not Unreasonable

The federal habeas petition’s closely related claims 15, 16, 63 and 64, alleged trial
counsel’s ineffective assistance in failing to properly investigate, develop and present
mental state evidence at the guilt phase which was later presented at the penalty phase,
or additional related evidence, addressing premeditation, deliberation, intentional
killing, and rape or attempted rape. Included within these claims was trial counsel’s
failure to request, obtain and present neuro-psychiatric testing which the defense
experts told defense counsel Soria was required to support their opinions that Petitioner
was mentally impaired at the time of the underlying events, and that such testing
evidence would form the basis for guilt phase mental state defenses and penalty phase
evidence in mitigation.
In Claims 15 and 16, petitioner argued ineffective assistance in trial counsel’s:
failing to investigate and present at least the same mental health and mental state
defense evidence at the guilt phase as they did at penalty; and failing to investigate and
present more such available evidence at the guilt phase than they actually did at the
penalty phase, including social history evidence and related expert testimony bearing
upon brain disease and mental state.
Claim 63 alleged that counsel were ineffective in failing to obtain and present
18

evidence resulting from a Positron Emission Tomography (PET)-Scan,
electroencephalogram (EEG) and an alcohol-induced-EEG in the guilt phase. Claim 64
alleged that the defense investigators failed to make arrangements for those tests, all
despite the defense experts’ pre-trial request for such testing.
As with claim 65, addressed in the preceding argument, ante, all the claims
addressed in this argument were raised both on direct appeal and in the initial state
habeas petition, then briefly addressed and rejected in the state court appeal opinion
(the last reasoned opinion). The Ninth Circuit panel opinion looks through the summary
denial of the state habeas and examines the state court appeal opinion.
1.

Underlying Events, Mental Health Evidence And Holdings
a.

Defense Mental Health Evidence At Trial

The defense presented no guilt phase mental health expert testimony.
Nonetheless, during guilt phase closing, the prosecutor conceded that there was a
“coherent theory of the state of the evidence that would justify a finding” of second
degree murder or manslaughter, or no intent to kill, or heat of passion. Defense counsel
Charles Soria’s closing argued insufficiency of the evidence, but also contended the
homicide “could have started” as self-defense, “the person over-reacted,” the shallow
stab-wound “denotes an accident” and if Petitioner “was out there” there “was an
explosion of emotions.” The victim’s shoe being off indicated consent, not rape.
At penalty phase, defense experts William Pierce, clinical psychologist, and
Samuel Benson, psychiatrist, testified and agreed Petitioner suffered organic brain

19

damage, middle brain dysfunction, an alcohol-induced organic disorder and alcohol
th

intoxication. App. A, Berryman v. Wong, 954 F.3d 1222, 1225 (9 Cir. 2020).
As to possible organic brain syndrome, both experts believed Petitioner had some
brain damage at an early age, possibly at birth, manifested by learning difficulties in
school, exacerbated by two later head injuries - in 1983, he was rendered unconscious by
falling from a crane and later, hit on the head with a metal pipe. Drs. Pierce and Benson
advised Soria that Petitioner had to undergo neurological testing to confirm brain
damage, including an EEG, an alcohol-induced EEG, and PET-scan. They advised that
Petitioner’s supporting factual history of organic brain damage included: early age
learning disabilities at school, special education placement beginning third grade, and
demonstrated intellectual deficiencies (like his brother); later head injuries, one
rendering him unconscious; ringing in the ears; sudden onset, recurrent, intense and
disabling headaches accompanied by facial distortions, lasting 15-20 minutes; written
tests indicating difficulty performing perceptual motor tasks; additional soft signs, e.g.,
perceiving aura of odors (smelling non-existant oil, gas or petroleum products) prior to
headaches, which always precedes an abnormal EEG pattern or seizure disorder, and
ringing in the ears. Numerous people described Petitioner’s alcoholism, beginning at age
14 and a pattern of deterioration during 1987, when he lost a job, increased alcohol
consumption especially May-August, separated from his wife and left Los Angeles. Dr.
Pierce opined Petitioner’s headaches appeared to be like “grand mal seizures,”
consistent with soft signs of organic dysfunction, and he exhibited related difficulties on

20

Dr. Pierce’s written neurological tests, including immediate recall.
Dr. Pierce testified Petitioner’s non-violent history and patterns of reacting to
problems, frustration and anger did not “fit” “what happened in September of 1987,”
which was “uncharacteristic of this person which suggests that there has to be
something else involved to make behavior become that bizarre and out of control and
that’s what the diagnosis reflects.” Further neurological testing was required to
determine the level of possible interruption in central nervous system functioning, which
can be adversely affected by alcohol, and the effect of alcohol intoxication on an already
existing syndrome. Dr. Pierce therefore consulted Dr. Benson, who confirmed existence
of “soft signs” of brain damage and diagnosed “organic mental syndrome . . . alcoholinduced,” “middle brain dysfunction.” Dr. Benson believed diagnosis confirmation
required additional neurological testing, such as an alcohol-induced-EEG, to see if
Petitioner suffered from “grand-mal epilepsy” or “petit-mal epilepsy”, a lesser form of
seizure associated with brain tissue damage.
The two available hospitals in Kern County either refused to test Petitioner (as an
inmate facing a murder charge), or did not have technicians qualified to perform the
testing; no such tests were performed on Petitioner. The experts’ diagnoses and penalty
phase testimony therefore seemed equivocal and tentative, and lacked the kind of
definitive support that would have convinced the jury that the diagnoses were correct.
The prosecutor capitalized on the omission by emphasizing the absence of the
EEG or PET-scan, arguing in closing that: testing was deliberately not done in order to

21

preserve the argument of possible brain damage; if tests were performed and ruled out
organic brain damage, the defense would not have anything to talk about; if the defense
really wanted these tests performed, it would have asked the judge for an order
transporting Petitioner under guard somewhere for testing, but did not.
The trial court also alluded to the absence of such evidence at sentencing,
concluding Petitioner failed to substantiate California statutory mitigating factors (d)
and (h). While Pierce, according to the court, opined Petitioner may have some disorder
“and wanted to rule out some organic mental syndrome not otherwise specified,” this
was the very evidence defense counsel failed to obtain and present to the jury.
Confirmation of brain damage could also have been statutory factor (k) mitigation.
b.

State Habeas Evidence

The 1993 state habeas presented relevant declarations from Drs. Pierce and
Benson and Soria, and some school and medical records. Soria admitted that:
-

Soria consulted with Drs. Pierce and Benson before the guilt phase began, both

found “‘soft signs’ leading to suspicion of brain damage” and organic brain disease, due
to head traumas and chronic alcohol use, but Dr. Benson could not positively testify
Petitioner “suffered from brain damage without further testing;” specifically, “Benson
wanted [Petitioner] . . . tested with an alcohol-induced EEG” to “determine . . . brain
tissue damage,” and that it required technical expertise not available at all hospitals.
-

Soria knew Dr. Pierce’s conclusion meant that “further neurological testing was

required to rule out any organic mental syndrome such as brain damage. I also

22

understood this was especially important because [Petitioner] had a history” of head
trauma.
-

After two Kern County hospitals were found unusable for the EEG, Dr. Benson

suggested an out-of-county facility where tests could be performed, but Soria never
requested an order from the trial court for Petitioner’s transfer for testing because Soria
then believed the court would not issue such an order. Soria admitted that in early 1990,
in People v. Holt, Soria sought and obtained Kern County orders for that capital
defendant’s transfer to UC-Irvine Medical Center where a PET-scan occurred and to a
San Jose facility where an EEG was administered confirming organic brain damage. The
Holt orders were signed by the same judge who had presided in Berryman. Soria
claimed he realized these removal orders were possible only after reading about
procedures in another capital case.
-

“There is no reason why a similar order would not have issued in [Petitioner]’s

case if I had sought one.”
-

Therefore the EEG was never performed and jurors could not be told by Drs.

Pierce and Benson that Petitioner actually suffered from organic brain damage, their
expert opinions remained speculative and unconfirmed by testing “they had
recommended.” Had such testing been done and shown brain damage, Soria believed it
would have been additional significant and material evidence, making these experts’
testimony more probative.
-

“[T]his omission undermined the value of the expert opinions offered on behalf of

23

petitioner at the penalty trial.”
Dr. Benson confirmed his trial testimony and Soria’s account generally, while
adding that:
-

Dr. Benson had suggested tests could be performed outside Kern County,

including UC-Irvine. Soria responded “the court would not grant an order to allow these
expensive tests to be done, particularly if they had to be done outside Kern County,” so
Dr. Benson could not confirm his diagnosis, which would have allowed Dr. Benson to
testify to a more positive opinion that “Berryman suffered from brain damage that may
have affected his conduct at the time of the incident resulting in his conviction and
sentence of death.”
-

Before the guilt phase began (August 11, 1988), Dr. Benson told Soria of his

findings and advised that if confirmed by EEG and PET-scan they could be helpful to guilt
phase defenses establishing mental disease, illness or condition, but Soria did not call
Dr. Benson to testify at the guilt phase.
Dr. Pierce confirmed his trial testimony and Soria’s account generally, while
adding that:
-

Dr. Pierce’s April, 1988, evaluation (four months before guilt phase began)

included interviewing Petitioner, relatives, administering specific written tests; Dr.
Pierce suggested to Soria that the neurological tests including an EEG and alcoholinduced EEG be run and “this information should be used in the guilt phase . . .” if
confirmed brain damage, in addition to penalty; Dr. Pierce consulted Dr. Benson who

24

agreed on diagnosis and “that further neurological testing was required. . . [but] never
done.”
School records documented that in 1977, 11-year-old Rodney Berryman’s full scale
IQ (FSIQ) was 75. Medical records documented Petitioner’s 1984 work-related fall
resulting in unconsciousness.
The 1993 state habeas requested the state supreme court grant “sufficient funds
to obtain investigators and expert assistance as necessary to prove the facts alleged in
this petition” and grant orders and funds for Petitioner “. . . to undergo the recommended
neurological testing to determine whether he suffers from brain damage or disease, or
other relevant mental condition . . .” That court denied the petition without even calling
for an informal response on December 27, 1993, failed to authorize investigatory fees and
failed to afford any evidentiary proceedings. The state court summarily denied the state
petition.
As summarized by the District Court, App. C at 104-105, there was evidence
Petitioner and the victim knew one another prior to the underlying events, which was
supportive of them having engaged in voluntary intercourse on the night in question.
c.

Related Court Holdings Below

As to the guilt phase arguments, the state court opinion rejected the whole
category of guilt phase ineffective assistance of counsel claims, without bothering to
itemize them except failure to investigate mental state at the time of the crime, etc., this
way:

25

Defendant claims that defense counsel performed deficiently with regard to
numerous cited acts and omissions and thereby subjected him to prejudice. In
large part, he simply recasts arguments for reversal that we have expressly or
impliedly disposed of in the course of the preceding analysis. He is indeed forceful
in presenting his complaints. We have carefully considered each in its proper
context. In few, if any, instances does he show professionally unreasonable
conduct. In none does he show a reasonable probability of an adverse effect on the
outcome.
[ . . . ¶ . . . ] Neither does defendant establish ineffective assistance in defense
counsel's asserted failure to investigate his mental state at the time of the crime
or to introduce evidence thereon. Here as well, he does not demonstrate that the
investigation would have yielded favorable results and hence cannot demonstrate
that its omission adversely affected the outcome within a reasonable probability.
App. D, People v. Berryman, 6 Cal.4th at 1082.
This above passage identifies the defendant’s asserted right as based in the Sixth
Amendment and related state constitution provision. Nowhere in the state opinion is the
clearly established federal law, Strickland, cited, nor is its standard discussed,
regarding guilt phase ineffective assistance of counsel.
The Ninth Circuit panel held that this holding amounted to a finding that
Petitioner was not prejudiced by counsel’s such failure, and that this holding was
reasonable. App. A at 14. The panel further held that had counsel developed such
evidence for the guilt phase, it would have required arguing that Petitioner and the
victim engaged in consensual sex, after which Petitioner had a seizure and then killed
the victim unintentionally, which the panel holds a “far-fetched theory.” App. A at 15-16.
However, the panel also concedes that Soria presented just such as an alternative guilt

26

phase argument. App. A at 15, n.2.3
The panel also reasons that “circumstantial evidence tying Berryman to the scene
was not insurmountable,” identifying blood on the shoe and the victim’s fingerprint, for
which the panel holds the defense had rejoinders, such that “[t]he straightforward
innocence argument that Berryman’s lawyers pursued was not a lost cause,” App. A at
16, the implication being that counsel made a reasoned tactical decision not to
investigate or obtain available mental health evidence, as identified. Respectfully, this
ignores the available mental health evidence, and counsel’s duty to develop and present
unified themes and evidence at guilt and penalty, and construct and present the guilt
phase as a foundation for the penalty phase case, should it be necessary. Goodpaster,
The Trial For Life: Effective Assistance Of Counsel In Death Penalty Cases, 58 N.Y.U.
L. Rev. 299, 338 (1983). Presenting a guilt phase defense of alibi and denial of guilt,
followed by a penalty phase case of mental illness as mitigation, as defense counsel did
here, has long been viewed as contrary to existing norms of practice. See id., at 324325,330-334.
The state court’s reasoning is to the contrary. See discussion, post.

3

Of course, Soria so argued with no supporting guilt phase evidence and did so
following the prosecutor’s closing, where the prosecutor conceded that there was a
“coherent theory of the state of the evidence that would justify a finding ...” of second degree
murder or manslaughter, or no intent to kill, or heat of passion; that prosecution concession
was without presentation of any defense mental state evidence. Soria’s failure occurred
despite being told by his experts there was a basis for such a related guilt phase defense and
asked by them to obtain evidence through available supporting scientific tests, as well as
being told by those experts that the same tests were not just for guilt phase defenses, but
also were necessary to support their testimony for penalty phase mitigation evidence.
27

The panel then holds that either “the California Supreme Court reasonably
concluded that a mens rea defense theory would not have been reasonably probable to
persuade the jury to acquit. . . . ,” or that, if counsel did render deficient performance, it
was reasonable for the state court to conclude that Petitioner failed to show the omission
of guilt phase mental state evidence adversely affected the outcome, “as counsel was
more likely to succeed in arguing that Berryman had not killed Hildreth at all.” App. A at
16-17. The panel’s reasoning is contrary to the state court’s reasoning. The state court
held that there was ample evidence of guilt, itemizing numerous other items of evidence
which it characterizes as “substantial” for the defense to overcome on identity. App. D,
Berryman, 6 Cal.4th at 1083.
2.

Strickland and Progeny Exclude The Panel’s Holding That The State
Court’s Opinion Was Reasonable.

The clearly established federal law on point, Strickland and progeny, also
exclude the panel’s holding that the state court opinion was reasonable. The pertinent
caselaw is set forth in the preceding argument regarding Claim 65. In essence, trial
counsel has a duty to conduct a reasonable investigation before making tactical
decisions, contrary to the panel’s conclusion here that the state court was reasonable in
concluding that trial counsel made a decision to pursue a factual innocence defense in
lieu of pursuing his own experts’ requests that neuropsychiatric testing be conducted to
support potential defenses for both guilt and penalty phases.
As discussed ante, in Wiggins, 539 U.S. at 521, this Court cited and repeated the
holding from Strickland, supra, 466 U.S. at 690-691, that “counsel has a duty to make
28

reasonable investigations or to make a reasonable decision that makes particular
investigations unnecessary.” Id., Sears, supra, 561 U.S. at 954; see also Williams,
supra, 529 U.S. at 396. Thus, the constitutional right to effective counsel guarantees
petitioner the right to have counsel, at a minimum, conduct such a reasonable
investigation as to enable him or her to make an informed decision as to how to proceed.
Sanders, supra, 21 F.3d at 1456-1457; Rompilla, supra, 545 U.S. at 387. When counsel
failed to take any action on Drs. Pierce and Benson’s request that testing be obtained,
counsel failed to conduct a reasonable investigation and as a result was unable to make
an informed decision as to how to proceed strategically at guilt or penalty.
Additionally, as described ante, counsel here was on notice from his experts that
they believed Petitioner suffered from mental disabilities amounting to defenses at guilt
and penalty, but that the experts needed testing to confirm their diagnoses. Trial
counsel’s subsequent failure to investigate Petitioner’s related “‘mental[...]
impair[ments],” heightened “the danger of ineffective assistance . . .” Caro, supra, 280
F.3d at 1254, quoting Hendricks, supra, 70 F.3d at 1043.
The prejudice from trial counsel’s failure manifested in various ways. First,
instead of pursuing pre-trial scientific testing before deciding guilt phase strategy (and
its implications for penalty phase strategy and trial strategy as a whole), trial counsel
chose instead at the guilt phase primarily to deny any involvement by Petitioner in the
homicide at all during the guilt phase (while also arguing without expert support in guilt
phase closing that after engaging in consensual sex with the victim, Petitioner had a

29

seizure and committed the homicide, as discussed ante, which the panel concedes
counsel did, see App. A at 15, n.2), and then presented a mental illness defense at penalty
phase, for which the experts admittedly lacked the support which testing might have
provided. The penalty phase defense thus contradicted the guilt phase defense, contrary
to well established capital defense norms. See Goodpaster, The Trial For Life: Effective
Assistance Of Counsel In Death Penalty Cases, supra, 58 N.Y.U. L. Rev. at 338.
Second, defense counsel presented a greatly watered down and parenthetical
version of the argument in guilt phase closing, without any supporting expert testimony
or even lay witness testimony at all, which could only have confused the jury.
Third, the prosecutor pounced on these errors in his own penalty phase closing,
emphasizing the absence of neuropsychiatric testing to the jury and arguing that this
omission was intentional and tactical on the part of the defense. The prejudice from trial
counsel’s blunder was direct and directly lead to the death verdict imposed here.

30

CONCLUSION
For the foregoing reasons, the petition for writ of certiorari should be granted.
DATED: December 31, 2020
Respectfully submitted,
SAOR E. STETLER
TIMOTHY BROSNAN
/s/ Saor E. Stetler
SAOR E. STETLER
Attorneys for Petitioner Rodney Berryman, Sr.

31

CERTIFICATE OF COMPLIANCE
I certify that pursuant to United States Supreme Court Rules, Rule 33.1(h)2, the attached
Petition for Writ of Certiorari is proportionately spaced with a Century 725 BT typeface
of 12 points, contains 7764 words according to my word processing program.

DATED: December 31, 2020
Respectfully submitted,
SAOR E. STETLER
TIMOTHY BROSNAN
/s/ Saor E. Stetler
SAOR E. STETLER
Attorneys for Petitioner Rodney Berryman, Sr.

32

